        REDACTED – FOR PUBLIC RELEASE




IMPLEMENTATION OF THE COMMUNICATIONS
ASSISTANCE FOR LAW ENFORCEMENT ACT BY
 THE FEDERAL BUREAU OF INVESTIGATION



           U.S. Department of Justice
         Office of the Inspector General
                  Audit Division


              Audit Report 08-20
                 March 2008




        REDACTED – FOR PUBLIC RELEASE
                        REDACTED – FOR PUBLIC RELEASE


         IMPLEMENTATION OF THE COMMUNICATIONS
       ASSISTANCE FOR LAW ENFORCEMENT ACT BY THE
            FEDERAL BUREAU OF INVESTIGATION*

                              EXECUTIVE SUMMARY

      Criminal organizations and individuals frequently use the
telecommunication systems of the United States to further serious crimes,
including terrorism, kidnapping, extortion, organized crime, drug trafficking,
and public corruption. One of the most effective tools law enforcement
agencies use to acquire evidence of these crimes is electronic surveillance
techniques.1 However, continuing advances in telecommunication
technology have impaired and in some instances prevented law enforcement
from conducting some types of authorized electronic surveillance.

        With advances in telecommunication technologies and law
enforcement’s growing concern about the ability to conduct authorized
electronic surveillance, Congress passed the Communications Assistance for
Law Enforcement Act (CALEA) in 1994. The purpose of CALEA was to enable
law enforcement to conduct electronic surveillance despite the deployment
of new technologies and wireless services that have altered the character of
electronic surveillance. To facilitate CALEA implementation, Congress
appropriated nearly $500 million to the Telecommunications Carrier
Compliance Fund (TCCF). The Attorney General was designated to
reimburse telecommunication carriers for the cost of modifying equipment,
facilities, or services installed or deployed on or before January 1, 1995, to
assist law enforcement authorities in carrying out its surveillance activities.
In February 1995, the Attorney General delegated CALEA management to
the Federal Bureau of Investigation (FBI).




       * The full version of this report includes information that the FBI considered to be
law enforcement sensitive or proprietary and confidential in nature, and therefore could not
be publicly released. To create this public version of the report, the OIG: (1) redacted the
portions of the full report that the FBI considered sensitive, and (2) indicated where those
redactions were made.
       1
           Electronic surveillance consists of the acquisition of call-identifying information and
the interception of communications content. Call-identifying information identifies the
origin, direction, destination, or termination of a communication generated or received by a
subject of surveillance, while content is the substance of a communication.

                                      i
                        REDACTED – FOR PUBLIC RELEASE
                         REDACTED – FOR PUBLIC RELEASE


Background

      Pursuant to CALEA, the Department of Justice (DOJ) Office of the
Inspector General (OIG) is required to report to Congress biennially on the
equipment, facilities, and services modified to comply with CALEA
requirements.2 In prior audits, we reported on FBI agreements that applied
TCCF funds to pay manufacturers for software feature updates and
associated licensing fees, referred to as Right-To-Use (RTU) agreements.
These payments allowed carriers to obtain CALEA software solutions once
the FBI reimbursed the manufacturer for development costs. As shown in
the following table, over the past 10 years the FBI spent almost $452 million
on these RTU licenses.

                                   TCCF COST SUMMARY
                                      (1997-2007)

                                    Amount
                                                            2%
             Type of Cost            ($)*
                                                       8%
                RTU Agreements         451.7                             RTU
                                                                         Agreements

       Carrier CALEA Solution                                            TCCF Recission
      Deployment, Activation,            7.5
                  and Testing                                            Deployment,
                                                             90%
                                                                         Activation, and
                                                                         Testing
           2007 TCCF Rescissions        40.3

                         TOTAL       $ 499.5
   Source: FBI
        *
           Figures in millions, rounded to nearest $100,000




       2
           Since 1998, the OIG has issued five audit reports on CALEA implementation
activities. Appendix II presents a summary of these reports and their findings and
recommendations.

                                       ii
                         REDACTED – FOR PUBLIC RELEASE
                        REDACTED – FOR PUBLIC RELEASE


      Before finalizing various RTU software license agreements, the FBI
prepared reports entitled Determination and Findings Regarding the
Implementation of CALEA because it was unable to verify the reasonableness
of the cost of the RTU software licenses through traditional means, such as
actual cost data or price estimates. According to the FBI, manufacturers
were unwilling to furnish adequate cost or price information despite repeated
FBI attempts to obtain such information through extensive negotiations. As
a result, prior OIG reports have not offered an opinion regarding the
reasonableness of the nearly $452 million the FBI spent on RTU licensing
costs.3

       In addition to the RTU agreements, the FBI has spent nearly $7.5
million, including about $4.6 million during this audit period, to pay wire line
carriers for deploying, activating, and testing CALEA solutions. By the end of
the audit period, the FBI expended a total of $459 million primarily on RTU
license agreements and carrier CALEA solution deployment and testing. In
2007, Congress rescinded over $40 million from the TCCF, which left only
$5,037 remaining in the fund.4

Audit Approach

      The objectives of the audit were to determine: (1) the type of
equipment, facilities, and services brought into compliance with CALEA, and
(2) whether payments during the most recent 2-year review period for
CALEA-required modifications were reasonable and cost effective.
Considering the 2007 TCCF rescissions, our audit also reviewed how the FBI
has continued to work with telecommunication providers to help ensure that
emerging communication technologies are CALEA compliant.

       Our review focused on TCCF-financed activity occurring between
January 1, 2006, and December 31, 2007. During the audit, we interviewed
officials at FBI Headquarters, the FBI CALEA Implementation Unit, various
units of FBI’s Finance Division, and selected telecommunication providers.
We also reviewed CALEA annual reports, assessments, associated files,
contracts, obligations, and payments for CALEA-implementation activities.


       3
         Our March 2006 report found, in part, that the FBI negotiated substantially
reduced costs for the RTU licenses at least when compared to the manufacturers’ initial cost
proposals for these licenses. See U.S. Department of Justice Office of the Inspector
General, The Implementation of the Communications Assistance for Law Enforcement Act,
Audit Report 06-13 (March 2006), 15.
       4
           Pub. L. Nos. 110-5 (2007) and 110-161 (2007).

                                      iii
                        REDACTED – FOR PUBLIC RELEASE
                       REDACTED – FOR PUBLIC RELEASE


Results in Brief

      Between January 2006 and December 2007, the FBI spent a total of
$4.6 million in TCCF funds to implement CALEA provisions. Of this amount,
the FBI paid $4.5 million to two carriers under formal agreements to deploy
CALEA solutions on over [SENSITIVE INFORMATION REDACTED] network
switches, while nearly $100,000 was paid to a carrier for testing various
CALEA solutions on its telecommunication network.5 We could not assess
the reasonableness or cost effectiveness of TCCF expenditures paid during
the audit period because the FBI based these costs on negotiated terms
instead of independent cost data or competing price estimates derived from
more than one carrier.

       As of December 2007, the end of the audit period, only $5,037
remained in the TCCF. The FBI is working with DOJ to transfer remaining
TCCF funds to the DOJ Working Capital Fund and close the TCCF account.
As a result, the report makes no recommendations. The remaining sections
of this Executive Summary describe in more detail our audit results.

TCCF Expenditures

      During the 2-year period under review, the FBI had formal agreements
with two carriers to deploy CALEA solutions. At a total cost of $4.5 million,
carriers certified that they upgraded their networks to allow law enforcement
agencies to receive CALEA compliant surveillance results. Although internal
FBI communications stated that the $4.5 million compensated carriers only
for reasonable CALEA deployment costs, the FBI did not provide any
evidence based on independent cost data or competing price estimates to
support this statement.6 As a result, we could not determine the
reasonableness or cost effectiveness of payments made to carriers that
deployed CALEA solutions under these agreements.

      The FBI also paid nearly $100,000 to a carrier to test various CALEA
solutions. Our assessment of the reasonableness and cost effectiveness of

       5
        A switch is a telephone device that “makes the connection” when a call is placed.
Modern switches are specialized computers.
       6
          Before one carrier deployment agreement was finalized, the FBI conducted an
audit to assess the fairness and reasonableness of proposed carrier costs. Although the FBI
audit found that certain proposed costs were reasonable, the FBI audit did not consider
independent cost data or competing price estimates in making this determination. As a
result, we could not use the results of the FBI audit in our analysis of whether carrier
deployment costs paid under the agreement were reasonable or cost effective.

                                     iv
                       REDACTED – FOR PUBLIC RELEASE
                       REDACTED – FOR PUBLIC RELEASE


these payments found that the FBI based them on negotiated terms instead
of independent cost data. However, the FBI has issued statements justifying
the costs associated with various CALEA solutions because such solutions
would result in long-term financial savings to law enforcement agencies.

Measuring and Enhancing CALEA’s Impact on Electronic Surveillance

      Over the past 2 years, the FBI has continued developing tools and
implementing resources to help facilitate and measure CALEA compliance of
telecommunication providers. We found that the FBI has hosted and
attended forums and other types of meetings with law enforcement
personnel, developed and updated its AskCALEA website, conducted and
issued annual threat assessment surveys, and surveyed telecommunication
providers regarding the status of CALEA solutions on their networks.7

      The FBI participates as a member of the telecommunication industry
electronic surveillance standard-setting groups.8 However, FBI officials
advised that because of the voting structure of these groups, which are
industry dominated, the FBI has had limited ability to ensure that adequate
CALEA solutions are available for newly developed communication
standards. As a result, the FBI is concentrating its efforts on working with
and testing packet-mode based telecommunication providers and
manufacturers to develop and deploy adequate CALEA solutions.9

Conclusion

       Of the nearly $4.6 million spent between January 2006 and December
2007, about $4.5 million was paid to two carriers to deploy CALEA-related
solutions. The FBI also paid $96,878 to a carrier for testing CALEA solutions
on its telecommunication network. We could not assess the reasonableness
or cost effectiveness of these expenditures because the FBI did not base its
costs on independent cost data or competing price estimates.




       7
        AskCALEA is a website established by the FBI to assist law enforcement and carrier
personnel with surveillance issues.
       8
          Electronic surveillance standards provide the basis for the development and
deployment of technology to permit carriers to assist law enforcement in conducting
electronic surveillance.
       9
         A telecommunication network based on packet-mode technology operates by
routing and transferring data by means of packets of information.

                                     v
                       REDACTED – FOR PUBLIC RELEASE
                    REDACTED – FOR PUBLIC RELEASE


      Our audit also reviewed how the FBI has continued to work with
telecommunication providers to help ensure that emerging communication
technologies are CALEA compliant. We found that the FBI has revamped its
testing group and enhanced its resources to help measure and facilitate
CALEA compliance. In addition, the FBI has implemented an extensive
testing program to ensure carrier compliance and capability with regard to
emerging technologies.

      At the end of the audit period, only $5,037 remained in the TCCF.
According to a DOJ finance official, the FBI is working with DOJ to transfer
the remaining funds to the DOJ Working Capital Fund and close the TCCF.

      We provided a draft of the report to the FBI for comment and review.
Since the report made no recommendations, the FBI did not provide a
response and we issued the report closed.




                                  vi
                    REDACTED – FOR PUBLIC RELEASE
                        REDACTED – FOR PUBLIC RELEASE


         IMPLEMENTATION OF THE COMMUNICATIONS
       ASSISTANCE FOR LAW ENFORCEMENT ACT BY THE
            FEDERAL BUREAU OF INVESTIGATION

                               TABLE OF CONTENTS

INTRODUCTION .................................................................................1

   CALEA Provisions and Responsibilities ................................................ 1
   The Telecommunications Carrier Compliance Fund ............................... 3
   Audit Objectives and Scope .............................................................. 5

AUDIT RESULTS .................................................................................6

   TCCF Expenditures .......................................................................... 6
     Carrier Deployment Agreements ................................................... 6
     Carrier CALEA Solution Tests ...................................................... 12
   Measuring and Enhancing CALEA’s Impact on Electronic Surveillance.... 13
     Law Enforcement Forums and Working Groups.............................. 14
     Law Enforcement and Telecommunication Provider Surveys ............ 14
     AskCALEA Website and Help Desk ............................................... 18
     Technology Standards Groups .................................................... 19
     Developing and Testing CALEA Solutions ...................................... 20
   Conclusion ................................................................................... 23

STATEMENT ON INTERNAL CONTROLS.............................................24

STATEMENT ON COMPLIANCE WITH LAWS AND REGULATIONS .......25

APPENDIX I – OBJECTIVES, SCOPE, AND METHODOLOGY................26

APPENDIX II – PRIOR OIG AUDIT REPORTS....................................27

APPENDIX III – ACRONYMS ............................................................29




                        REDACTED – FOR PUBLIC RELEASE
                        REDACTED – FOR PUBLIC RELEASE


                                   INTRODUCTION

       Law enforcement agencies use electronic surveillance techniques to
acquire evidence for criminal and terrorism investigations. Traditionally,
electronic surveillance involved using various techniques to intercept and
obtain communication information and content. Title III of the Omnibus
Crime Control and Safe Streets Act of 1968 (Title III) and portions of the
Electronic Communications Privacy Act (ECPA) are the primary laws
governing the use of electronic surveillance in criminal investigations.10
Similar rules governing electronic surveillance conducted during foreign
intelligence, counterintelligence, and terrorism investigations are found in
the Foreign Intelligence Surveillance Act (FISA).11

      The rapid pace of technological changes in the way people
communicate has presented challenges to law enforcement agencies
conducting electronic surveillance for criminal investigations. In 1994,
Congress passed the Communications Assistance for Law Enforcement Act
(CALEA) to ensure that the telecommunication industry would build
surveillance solutions into the technologies they deploy that allow law
enforcement agencies to continue to obtain electronic surveillance
information. According to CALEA’s assistance capability requirements,
telecommunication carriers are to isolate, intercept, and deliver
communication content and call identifying information to law enforcement
pursuant to lawful authorization.12

CALEA Provisions and Responsibilities

     CALEA assigned certain responsibilities to the Attorney General, the
Federal Communications Commission (FCC), telecommunication carriers,
equipment manufacturers (manufacturers), and the Department of Justice
(DOJ) Office of the Inspector General (OIG). In February 1995, the Attorney

       10
           Title III, as amended, contains the procedures law enforcement agencies must
follow to obtain the necessary judicial authorization to conduct electronic surveillance, while
ECPA, as amended, extends Title III coverage to the contents of electronic messages such
as e-mail and to data transmissions from facsimiles and pagers.
       11
           FISA, as amended, requires carriers to furnish “…all information, facilities, or
technical assistance necessary to accomplish the electronic surveillance in such a manner as
will protect its secrecy and produce a minimum of interference…” with the services of the
target of electronic surveillance.
       12
           Call-identifying information is defined as dialed number information that identifies
the origin, direction, destination, or termination of any communication generated or
received by a subject of surveillance. Content is defined as the substance or meaning of a
communication.

                                     1
                        REDACTED – FOR PUBLIC RELEASE
                        REDACTED – FOR PUBLIC RELEASE

General delegated CALEA management to the Federal Bureau of
Investigation (FBI). Table 1 outlines each entity with CALEA responsibilities.

    TABLE 1: SUMMARY OF CALEA STATUTORY RESPONSIBILITIES

       Entity                                        Responsibility
                        Ensures industry-wide implementation of the assistance capability
                        requirements.
                        Consults with state and local law enforcement agencies.
                        Provides estimates to the telecommunication industry on the
                        number of interceptions that government agencies may need to
            FBI         conduct.
                        Establishes rules to facilitate carrier reimbursements.
                        Allocates appropriated funds to carriers in a manner consistent with
                        law enforcement priorities.
                        Annually reports to Congress the amount of carrier payments during
                        the preceding year and the projected payments for the current year.
                        Determines which entities are telecommunication carriers and may
                        exempt any entity or category as a carrier by rulemaking and
                        consulting with the FBI.
                        Establishes technical standards for compliance with assistance
            FCC
                        capability requirements if industry associations fail to issue technical
                        standards, or if a government agency or any other person believes
                        that industry-adopted standards are deficient.13
                        Reviews and grants or denies petitions for extensions.
 Telecommunication      Ensure that equipment, facilities, or services that provide customers
 Carriers and Other     the ability to originate, terminate, or direct communications meet
 Service Providers14    the CALEA assistance capability requirements.
                     Make available all features or modifications necessary to meet
    Equipment
                     assistance capability requirements, including consulting with carriers
   Manufacturers
                     over current and planned equipment.
                     Report to Congress biennially on the type of equipment, facilities,
           15        and services brought into compliance with CALEA and whether costs
       OIG
                     paid to each carrier for CALEA-required modifications were
                     reasonable and cost effective.
Source: OIG Analysis of CALEA

       Effective implementation of CALEA’s provisions is dependant on the
joint efforts of government agencies, service providers, and

       13
           Electronic surveillance standards provide a basis for the development and
deployment of technology to permit carriers to assist law enforcement in conducting
electronic surveillance.
       14
           To meet their responsibilities under CALEA, some carriers have chosen to contract
with “trusted third parties.” A trusted third party is a private company whose services
include providing reviews of a carrier’s CALEA-compliance, managing the intercept function,
and serving as the custodian of record for the intercept information.
       15
            See Appendix II for a summary of prior OIG audits.
                                      2
                        REDACTED – FOR PUBLIC RELEASE
                           REDACTED – FOR PUBLIC RELEASE

telecommunications equipment manufacturers subject to the law’s
requirements.

The Telecommunications Carrier Compliance Fund

      CALEA authorized the Attorney General to reimburse
telecommunication carriers for modifications made to meet CALEA assistance
capability requirements on their equipment, facilities, or services installed or
deployed on or before January 1, 1995.16 In 1996, Congress established the
Telecommunications Carrier Compliance Fund (TCCF) and, over subsequent
years, appropriated nearly $500 million for such reimbursements, as shown
in Table 2 below.

            TABLE 2: DEPOSITS TO THE TELECOMMUNICATIONS
                      CARRIER COMPLIANCE FUND

                                                                       Amount
                                 Funding Activity                        ($)
           FY   1997   Direct Appropriations                            60,000,000
           FY   1997   Department of Justice Working Capital Fund       40,000,000
           FY   1997   U.S. Postal Inspection Service Transfer           1,000,000
           FY   1997   U.S. Customs Service Transfer                     1,580,270
           FY   2000   Direct Appropriations                            15,000,000
           FY   2000   Supplemental Appropriations                     181,000,000
           FY   2001   Direct Appropriations                           200,976,876
                                               Total TCCF Deposits   $499,557,146
           Source:     FBI

       The Attorney General delegated the responsibilities of overseeing the
TCCF and compensating carriers for CALEA compliance modifications to the
FBI. To carry out these responsibilities, the FBI established a CALEA
Implementation Unit (CIU) in its Operational Technology Division and an
Offsite Contract Unit (OSCU) in its Finance Division.17 The CIU worked with
carriers, manufacturers, and other telecommunication industry
representatives to develop and deploy CALEA-mandated solutions while the
OSCU awarded and administered CALEA implementation agreements and
audited proposed implementation costs.




      16
            47 U.S.C. §1008
      17
          The FBI’s Operational Technology Division was formerly called the Investigative
Technology Division, while the OSCU was formerly called the Telecommunications Contract
and Audit Unit.
                                         3
                           REDACTED – FOR PUBLIC RELEASE
                        REDACTED – FOR PUBLIC RELEASE

       In prior OIG audits, we reported on FBI agreements that applied TCCF
funds to pay manufacturers for software feature updates and associated
licensing fees, referred to as Right-To-Use (RTU) agreements. These
payments allowed carriers to obtain CALEA software solutions once the FBI
reimbursed development costs to the manufacturer.18 As shown in the Table
3, the FBI has spent about $451.7 million on these RTU licenses since 1997.

                           TABLE 3: TCCF COST SUMMARY
                                   (1997-2007)

                                   Amount
                                                             2%
            Type of Cost            ($)*
                                                        8%
              RTU Agreements19         451.7                              RTU
                                                                          Agreements

        Carrier CALEA Solution                                            TCCF Recission
       Deployment, Activation,            7.5
                   and Testing                                            Deployment,
                                                              90%
                                                                          Activation, and
                                                                          Testing
        2007 TCCF Rescissions           40.3

                        TOTAL       $ 499.5
   Source: FBI
        *
           Figures in millions, rounded to nearest $100,000

       In addition to the RTU agreements, the FBI spent approximately $7.5
million to reimburse wire line carriers for deployment, activation, and testing
costs of solutions that allow carriers to comply with CALEA requirements, or
CALEA solutions. In 2007, Congress rescinded over $40 million from the
TCCF.20 According to a DOJ finance official, the FBI is working with DOJ to
transfer the $5,037 remaining in the TCCF to the DOJ’s Working Capital Fund
and subsequently close the TCCF account.




       18
          Our March 2006 report found that the FBI was not provided the cost information
necessary to determine the reasonableness of costs associated with RTU agreements.
Therefore, the audit offered no opinion on the reasonableness or cost effectiveness of these
expenses. See 2006 OIG CALEA Implementation Report, 16.
       19
          Included in the $451.7 million figure is a late payment penalty of about $5,000,
for which the FBI could provide no explanation.
       20
            Pub. L. Nos. 110-5 (2007) and 110-161 (2007).
                                      4
                        REDACTED – FOR PUBLIC RELEASE
                   REDACTED – FOR PUBLIC RELEASE

Audit Objectives and Scope

      The objectives of the audit were to determine: (1) the type of
equipment, facilities, and services brought into compliance with CALEA, and
(2) whether payments during the most recent 2-year review period for
CALEA-required modifications were reasonable and cost effective. In light of
the TCCF rescissions that occurred in 2007, our audit also reviewed how the
FBI has continued to work with telecommunication providers to help ensure
that emerging communication technologies are CALEA compliant.

       Our review focused on TCCF-financed activity occurring between
January 1, 2006, and December 31, 2007. During the audit, we interviewed
officials at FBI Headquarters, the CIU, various FBI Finance Division units,
and selected telecommunication providers. We reviewed CALEA annual
reports, assessments, associated files, contracts, obligations, and payments
for CALEA-implementation




                                 5
                   REDACTED – FOR PUBLIC RELEASE
                     REDACTED – FOR PUBLIC RELEASE


                               AUDIT RESULTS

     During the 2-year period ending in December 2007, the FBI
     spent $4.6 million in TCCF funds to implement CALEA provisions.
     Of this amount, the FBI paid about $4.5 million to two carriers to
     deploy CALEA-related solutions on over [SENSITIVE
     INFORMATION REDACTED] wire line networks switches. In
     addition, another carrier received $96,878 for costs incurred
     from testing software developed under 4 different agreements.
     We could not assess the reasonableness or cost effectiveness of
     these expenditures because the FBI did not base payments on
     independent cost data or competing price estimates. During this
     review period, the FBI revamped its CALEA testing team and
     implemented new resources to help measure and facilitate
     CALEA compliance capabilities of telecommunication providers
     and manufacturers.

TCCF Expenditures

     Between January 2006 and December 2007, the FBI spent a total of
$4.6 million in TCCF funds to implement CALEA. Table 4 presents a
summary of TCCF payment activity during this period.

               TABLE 4: TCCF EXPENDITURES 2006-2008

                                                           Amount
                           Cost                               ($)
         Carrier Deployment Agreements                      4,509,110
         Carrier Testing                                       96,878
                                                    TOTAL $4,605,988
          Source: FBI and OIG analysis of FBI financial records

      The following sections analyze the TCCF expenditures made during the
audit period ending December 2007.

Carrier Deployment Agreements

      The ability of law enforcement agencies to conduct authorized
electronic surveillance anywhere within a telecommunication network is a
central tenet of CALEA. According to internal FBI correspondence, if CALEA
capabilities and dial-out solutions were not widely deployed, the ability of
law enforcement to conduct surveillance would be, “limited to a few basic
and costly surveillance functions.” Therefore, after spending about

                                   6
                     REDACTED – FOR PUBLIC RELEASE
                        REDACTED – FOR PUBLIC RELEASE

$452 million to pay manufacturers for costs of designing and developing
CALEA software solutions under RTU licensing agreements, the FBI began
assessing how best to deploy the developed technologies nationwide.

      To maximize the benefits to law enforcement agencies, the FBI
concentrated on activating CALEA software solutions on pre-1995 equipment
used by the regional bell operating companies (RBOC). According to FBI
documents, the RBOCs supported over 50 percent of all wire line switches in
the United States.21 To begin large-scale CALEA capability deployment, the
FBI began negotiating reimbursement agreements with Verizon
Communications, Inc. (Verizon); BellSouth Corporation (BellSouth); Qwest
Communications International, Inc. (Qwest); and SBC Communications, Inc.
(SBC) in 2004.22

      We found that the FBI finalized agreements with two carriers – Verizon
and BellSouth – and during our audit period paid a total of $4.5 million for
costs associated with activating the RTU software CALEA features and dial-
out solutions on over [SENSITIVE INFORMATION REDACTED] network
switches.23 In our previous CALEA audit report, we expressed concern over
the FBI’s plans to reimburse traditional wire line carriers the costs associated
with deploying CALEA solutions on pre-1995 switches.24 The report
recommended that since CALEA implementation was delayed significantly
and communication technologies had changed drastically since CALEA’s
enactment, the FBI should reexamine the benefits of activating CALEA
software solutions on wire line systems. As discussed earlier in the report,
however, Congress rescinded over $40 million from the TCCF in 2007.
According to FBI’s last annual CALEA report, the TCCF rescission effectively
ended FBI plans to establish future reimbursement agreements with
additional wire line carriers.25



       21
         A switch is a telephone device that “makes the connection” when a call is placed.
Modern switches are specialized computers.
       22
          In 2005, SBC purchased AT&T and renamed itself AT&T. In 2006, the new AT&T
acquired and merged with BellSouth.
       23
          FBI officials added that discussions held with Qwest and SBC did not result in
formalized reimbursement agreements. According to the FBI, Qwest and SBC deployed
CALEA solutions on their networks without TCCF reimbursement.
       24
            2006 OIG CALEA Implementation Report, 51.
       25
          Federal Bureau of Investigation, Communications Assistance for Law Enforcement
Act - Twelfth Annual Report to Congress (2006), 13.
                                      7
                        REDACTED – FOR PUBLIC RELEASE
                      REDACTED – FOR PUBLIC RELEASE

      Verizon Contract

      According to internal documents, the FBI had many discussions with
Verizon officials about payments for deploying CALEA solutions developed
under various RTU agreements. Since the FBI did not have an established
history of reimbursing carriers for costs associated with implementing CALEA
capabilities, the negotiations considered a series of cost proposals. To serve
as a starting point for these negotiations, Verizon submitted a preliminary
proposal detailing costs associated with activating CALEA solutions on its
entire wire line network.

      To determine the total reimbursable cost, Verizon first estimated the
cost of: (1) upgrading equipment associated with its pre-1995 switches;
and (2) deploying CALEA solutions based on security, training, management,
and labor expenses to its entire wire line network. In communications with
the FBI, Verizon first reported that it would cost about $[SENSITIVE
INFORMATION REDACTED] to upgrade equipment and deploy CALEA
solutions to its pre-1995 platforms. During subsequent negotiations with the
carrier, the FBI identified certain proposed costs as unrecoverable under
CALEA.26 [SENSITIVE INFORMATION REDACTED]

      In October 2004, the FBI Finance Division performed an audit of
Verizon’s reduced cost estimate for acceptability in negotiating a final
contract price. The audit found that the $[SENSITIVE INFORMATION
REDACTED] proposal appeared to be overstated and determined that the FBI
should only pay Verizon for costs associated with: (1) training its personnel
on new software; (2) implementing security system modifications; (3)
testing upgraded software; and (4) direct costs of deploying CALEA software
features, including dial-out enhancements, on three of its major platforms.
As shown by Table 5, although the FBI audit did not take issue with the
costs associated with activating network switches or security system
development and training, the audit found that the FBI should not pay for
other operating and support costs.




      26
         Pursuant to CALEA, carriers can only recover costs directly associated with
upgrading equipment deployed on or before January 1, 1995, 47 U.S.C. §1008(a) (2005).
                                    8
                      REDACTED – FOR PUBLIC RELEASE
                       REDACTED – FOR PUBLIC RELEASE

      TABLE 5: FBI ADJUSTMENTS TO CARRIER COST PROPOSAL

                             Revised        FBI Audit
                             Verizon        Adjusted
                             Estimate        Figures
     Cost Category              ($)            ($)          Reason for Audit Adjustment
 X
 X                                      X               X   X
 X
                                                            X
                                                            X
                                                            X
                                                            X
 X                                      X               X
                                                            X
                                                            X
                                                            X
                                                            X
 X
 X                                      X               X   X
 X
                                              X
                      [SENSITIVE INFORMATION REDACTED]
                                                            X
                                                            X
 X                                      X               X   X
                                                            X
                                                            X
                                                            X
 X
                                        X               X   X
 X
 X                                                          X
                                        X               X
 X                                                          X
 X                                      X               X   X
 X
                                        X               X   X
 X
                     X             X             X
Source: FBI audit number P04-TL-004 and associated documentation.

      Based on the audit results, the FBI formalized a contract to pay
Verizon the costs associated with upgrading switches in November 2005.
The contract stated that Verizon would be paid $[SENSITIVE INFORMATION
REDACTED] for each switch activated with CALEA compliant software
features.27 As shown by Table 6, the agreement based the $[SENSITIVE

       27
           According to the agreement, the FBI could reimburse a carrier for costs either via
a cost reimbursement method or a firm-fixed price method. FBI officials indicated that they
preferred the firm-fixed price method for this agreement because the carrier would only
receive reimbursement once it certified that it had upgraded switches under the agreement.
An FBI official also told us that the firm-fixed price method is more efficient than a cost
reimbursement method because the firm-fixed price method does not require the FBI to
perform additional financial reviews on incurred costs.
                                     9
                       REDACTED – FOR PUBLIC RELEASE
                     REDACTED – FOR PUBLIC RELEASE

INFORMATION REDACTED] figure on the total cost Verizon would incur to
upgrade its platforms, divided by the number of switches Verizon agreed to
upgrade.

            TABLE 6: VERIZON CONTRACT PAYMENT DETAILS

              Final approved cost                               X
                                                            [SENSITIVE
              Number of switches to upgrade                     X
                                                           INFORMATION
                                                            REDACTED]
              Cost per certified upgraded switch               X
             Source: FBI-Verizon agreement dated November 3, 2005

      To receive TCCF funds, the agreement called on Verizon to submit
quarterly invoices to the FBI that: (1) listed the specific switches activated
pursuant to the agreement; and (2) certified that all listed switches, “have
been modified to provide all CALEA Assistance Capabilities required.”
Between April 2006 and January 2007, the FBI received [SENSITIVE
INFORMATION REDACTED] invoices from Verizon certifying the upgrade of
[SENSITIVE INFORMATION REDACTED] switches at a total cost of
$2,901,900.28

      BellSouth Agreement

      The FBI also negotiated an agreement with BellSouth to reimburse
costs associated with deploying CALEA solutions on its wire line network.
According to officials at the OSCU, the FBI sought to have BellSouth deploy
the same types of CALEA solutions to similar types of switch platforms as it
had with Verizon.

       In November 2005, the FBI formalized an agreement to pay BellSouth
$1,607,210 to deploy CALEA software on [SENSITIVE INFORMATION
REDACTED] network switches. According to these FBI officials, the agreed
upon payment was: (1) based on performance terms negotiated during the
Verizon negotiations; and (2) “in line with” the costs reimbursed under the
Verizon contract on a per switch basis. Therefore, the FBI did not conduct
an extensive series of negotiations with BellSouth, like it did with Verizon,
before finalizing the BellSouth agreement. In April 2006, BellSouth certified
that it had modified [SENSITIVE INFORMATION REDACTED] switches to
provide CALEA assistance capabilities called for by the agreement and the
following month invoiced the FBI $1,607,210.



      28
           [SENSITIVE INFORMATION REDACTED] As a result, the FBI and Verizon agreed
to adjust the agreement cost to $2,901,900.
                                  10
                     REDACTED – FOR PUBLIC RELEASE
                       REDACTED – FOR PUBLIC RELEASE

       Analysis and Assessment of Carrier Agreement Costs

       We reviewed invoices sent by Verizon and BellSouth and found that
each invoice: (1) individually listed the [SENSITIVE INFORMATION
REDACTED] switches that either Verizon or BellSouth activated during the
performance period of the agreements, and (2) included statements by the
carriers certifying activation of CALEA compliant software on the individually
identified switches. However, since the FBI did not conduct verification
testing on the switches under either agreement, we spoke with carrier
representatives to confirm the number of switches brought into compliance
with TCCF funds. These officials told us that certifications provided to the
FBI verifying the activation of CALEA software on the [SENSITIVE
INFORMATION REDACTED] switches accurately reflected each carrier’s
activity under the agreement.

      On a “per switch” basis, we calculated that the FBI paid Verizon
$[SENSITIVE INFORMATION REDACTED] per switch, while BellSouth
recovered an average of $[SENSITIVE INFORMATION REDACTED] per
switch. FBI officials told us that the difference in rates was based on
[SENSITIVE INFORMATION REDACTED]. We reviewed records of discussions
held between the FBI and carriers to assess whether these costs were
reasonable. We identified internal FBI communications authorizing
payments that stated that the $4.5 million paid compensated carriers for
only reasonable CALEA deployment costs. However, the FBI did not provide
any evidence based on independent cost data or competing price estimates
to support this statement.29 Considering this and the variance in carrier size
and equipment, we cannot determine whether the $4.5 million provided to
the carriers was a reasonable cost to upgrade [SENSITIVE INFORMATION
REDACTED] switches.

      To determine the cost effectiveness, or impact, of the total $4.5 million
the FBI paid Verizon and BellSouth to deploy their CALEA solutions, we
asked carrier representatives how often they used the [SENSITIVE
INFORMATION REDACTED] activated switches to capture surveillance
results. Carrier representatives told us that they do not track surveillance
intercepts by individual switch. As a result, we could not determine whether
or how the carriers use their switches to conduct law enforcement
surveillance intercepts.

       29
           As stated previously, the FBI audited the proposed Verizon deployment costs to
assess their fairness and reasonableness. The FBI audit found that certain proposed costs
were fair and reasonable. However, the FBI audit did not consider independent cost data or
competing price estimates. As a result, we could not use the results of the FBI audit in our
determining of whether carrier deployment costs were reasonable or cost effective.
                                    11
                       REDACTED – FOR PUBLIC RELEASE
                       REDACTED – FOR PUBLIC RELEASE

Carrier CALEA Solution Tests

      During the audit period, the FBI paid a total of $96,878 for costs
incurred by Qwest under four separate agreements finalized before January
2006. Three of the four agreements called on Qwest to test CALEA solutions
developed by an equipment manufacturer, while another required Qwest to
deploy and test surveillance capability solutions in anticipation of the 2002
Winter Olympic Games.

       The FBI entered into three agreements with Nortel Networks
Corporation (Nortel) to develop and include various CALEA solutions in its
switch software. Under these agreements, Qwest worked with Nortel to test
the developed capabilities and the FBI agreed to pay Qwest for planning,
installing, deploying, testing, and retesting the solutions on its switches. At
the conclusion of its dial-out testing, Qwest invoiced its costs under the
agreements and received payments from the TCCF totaling $63,495.

      In conjunction with the 2002 Winter Olympic Games, the FBI entered
into an agreement with Qwest to ensure that 29 designated network
switches in and around Salt Lake City, Utah, had the CALEA capabilities
required for court-ordered electronic surveillance. The agreement also
called on the FBI and Qwest to develop a technical plan that used a delivery
network that carried court-ordered surveillance information from Qwest
network switches to law enforcement agencies. In 2003, the FBI modified
the agreement to allow Qwest to recover $33,383 in costs resulting from
testing software on 29 designated switches.30

       The FBI did not perform a formal technical review of the manufacturer
agreements because Nortel did not provide cost data showing actual
expenses incurred by developing CALEA solutions.31 As a result, the FBI
relied on various Determination of Findings it compiled to justify the
reasonableness of CALEA solution costs. In one such document, the FBI’s
Operational Technology Division and the FBI’s Finance Division stated that
the telecommunication industry’s reluctance to offer specific cost information
stems from closely-guarded business practices. For example,

       30
           In FY 2002, the FBI also paid Qwest $2.2 million from the TCCF for developing
and implementing CALEA capabilities in the Salt Lake City area. See U.S. Department of
Justice Office of the Inspector General, The Implementation of the Communications
Assistance for Law Enforcement Act by the Federal Bureau of Investigation, Audit Report
04-19 (April 2004), 10.
       31
          Although the FBI requested underlying developmental costs associated with
various CALEA solutions from each manufacturer, manufacturers were unable or unwilling to
provide such cost information to the FBI.
                                    12
                       REDACTED – FOR PUBLIC RELEASE
                       REDACTED – FOR PUBLIC RELEASE

telecommunication industry non-disclosure agreements often restrict parties
from publicly releasing pricing data. Nonetheless, the FBI concluded that
costs associated with certain CALEA solutions would be reasonable since
they would result in long-term financial savings to law enforcement
agencies.

     According to records provided by OSCU, the CIU specifically reviewed
Qwest testing costs associated with the 2002 Winter Olympic Games.
However, CIU’s cost review did not consider independent cost data or
competing price estimates. Therefore, we cannot offer an opinion on the
reasonableness or cost effectiveness of the total $96,878 received by Qwest.

Measuring and Enhancing CALEA’s Impact on Electronic Surveillance

      In light of the $40 million in TCCF rescissions that occurred in 2007,
our audit also reviewed how the FBI has continued to work with
telecommunication providers to help ensure that emerging communication
technologies are CALEA compliant. Our audit found that, during the
reporting period, the FBI has developed tools and resources to help facilitate
and measure CALEA compliance. In addition, the FBI has hosted and
attended forums and other types of meetings with law enforcement
personnel, developed and updated the AskCALEA website, conducted and
issued annual threat assessment surveys, and surveyed telecommunication
providers regarding the status of CALEA solutions on their networks.32

       To assist in its monitoring efforts, the FBI joined DOJ in its Joint
Petition for Expedited Rulemaking, which asked the FCC to adopt a phase-in
plan requiring carriers to provide information regarding their CALEA
compliance status by certain dates.33 In its Second Report and Order, the
FCC declined DOJ’s request but developed a form (Form 445) for certain
service providers to use in reporting their extent of CALEA compliance to the
FCC by the compliance deadline.34 Using information provided to it by law
enforcement and voluntarily reported by telecommunication providers, the

       32
         AskCALEA is a website established and monitored by the FBI to assist law
enforcement and carrier personnel with surveillance issues.
       33
          In its First Report and Order, the FCC ruled that providers of Voice over Internet
Protocol (VoIP) and broadband services must comply with CALEA. On May 12, 2006, the
FCC issued its Second Report and Order and reaffirmed that providers of VoIP and
broadband services must be CALEA compliant by May 14, 2007.
       34
          FBI officials told us that they also received copies of Forms 445 submitted to the
FCC by various telecommunication providers and used, in part, results reported on these
forms to set testing priorities.
                                    13
                       REDACTED – FOR PUBLIC RELEASE
                     REDACTED – FOR PUBLIC RELEASE

FBI has conducted CALEA solution tests with individual providers and trusted
third parties. However, due to the rapid public emergence of packet-mode
technology, such as Voice over Internet Protocol (VoIP) and broadband
services, the FBI is focusing on establishing electronic surveillance solutions
for these new and emerging technologies.35

Law Enforcement Forums and Working Groups

      One of the ways the FBI has measured the impact of CALEA is through
periodic meetings, including the FBI-sponsored Law Enforcement Technical
Forum, the Law Enforcement Executive Forum, and various non-FBI
sponsored law enforcement meetings. FBI officials stated that these
meetings give law enforcement officials opportunities to discuss problems
encountered while requesting or receiving electronic surveillance.

       In addition, the FBI has established the Carrier Relations Working
Group (CRWG) and the Electronic Surveillance Working Group (ESWG) to
address law enforcement wiretap issues. Both working groups are
comprised of members of the Law Enforcement Technical Forum. The CRWG
works with providers and federal, state, and local law enforcement agencies
to minimize the cost of electronic surveillance, while the ESWG focuses on
assisting law enforcement surveillance efforts in the face of rapidly emerging
telecommunication technologies.

Law Enforcement and Telecommunication Provider Surveys

      The FBI prepares and issues Threat Assessment Survey Reports each
year from responses received from National Technical Investigator
Association meetings and various training sessions hosted by federal law
enforcement agencies. As shown by Table 7, the 2005 and 2006 surveys
detailed various areas affecting law enforcement’s ability to conduct and
receive electronic surveillance.




      35
          A communication network based on packet-mode technology operates by routing
and transferring data by means of addressed packets of information.
                                  14
                     REDACTED – FOR PUBLIC RELEASE
                    REDACTED – FOR PUBLIC RELEASE



     TABLE 7: SELECTED 2005 AND 2006 THREAT ASSESSMENT
                       SURVEY RESULTS

      Survey Response               2005 Survey         2006 Survey
                                           X                 X
  Top emerging technologies                X                 X
                                           X                 X
   Attempted surveillance on
    VoIP communications?                   X                 X
           (Yes/No)
   Attempted surveillance on
          broadband?                       X                 X
           (Yes/No)                 [SENSITIVE           [SENSITIVE
    Cost of surveillance has       INFORMATION          INFORMATION
       limited intercepts           REDACTED]            REDACTED]
                                        X                    X
          performed?
           (Yes/No)
  Surveillance results are not
     provided in a usable                  X                 X
  format? (Agree/Disagree)
   Have investigations been
   hindered by provider non-
                                          X                  X
    compliance with CALEA?
           (Yes/No)
 Sources: 2005 and 2006 FBI Threat Assessment Reports

      The 2005 and 2006 surveys showed that various law enforcement
agencies perceive the same types of technology – [SENSITIVE
INFORMATION REDACTED] – as the “hot items” most in need of CALEA
solutions. The 2006 survey revealed a four-fold increase, [SENSITIVE
INFORMATION REDACTED], in law enforcement agencies conducting
electronic surveillance with a VoIP provider. While the 2006 survey
responses demonstrated improvement in the way providers report
surveillance results, [SENSITIVE INFORMATION REDACTED] of respondents
stated that investigations continue to be hindered because
telecommunication providers were not CALEA compliant. According to these
responses, some of the problems stemmed from a lack of provider CALEA
solutions. In the end, however, law enforcement representatives reported
that their greatest concern regarding electronic surveillance remained its
high cost.




                                 15
                    REDACTED – FOR PUBLIC RELEASE
                      REDACTED – FOR PUBLIC RELEASE

      In December 2005, the FBI conducted a survey of telecommunications
providers to gauge their CALEA compliance status.36 According to the FBI,
258 carriers responded to the survey and reported the CALEA solution status
on a total of 3,858 switches.37 As shown in Figure A, providers reported that
1,530 or nearly 40 percent of their switches could not be used to produce
CALEA-compliant electronic surveillance results.




      36
          The FBI conducted the survey in response to our 2004 OIG report
recommendation that the FBI collect and maintain data on the number of carrier switches
that are and are not CALEA-compliant.
      37
          The FBI estimates that there are a total about 20,000 network switches in the
United States. Total survey responses reported on the CALEA-compliance status of 3,858
network switches. Therefore, the survey reported on about 19 percent of the total
estimated number of network switches in the United States.
                                   16
                      REDACTED – FOR PUBLIC RELEASE
                                 REDACTED – FOR PUBLIC RELEASE

          FIGURE A: FBI TELECOMMUNICATION PROVIDER SURVEY RESULTS


                                                                          2,328 switches had CALEA
       3,858
                                                                              solutions installed,
      Switches
                                                                              activated, or were
                                                                          otherwise able to transmit
                                                                          results to law enforcement
                                                                                    agencies


   CALEA solution                   3,689
                           Yes
     installed?                    Switches




                                 CALEA solution             3,538
         No                                       Yes
                                   activated?              switches




                                                           Employees
        169                                              trained so law
                                                                                         2,328
      Switches                                          enforcement can   Yes
                                      No                                                switches
                                                           use CALEA
                                                         functionality?




                                     151
                                                              No
                                   Switches

     1,530 switches, or 40
     percent, did not have
   CALEA solutions installed,
    activated, or otherwise                                 1,210
   were not able to transmit                               Switches
            results


Source: FBI


                                              17
                                 REDACTED – FOR PUBLIC RELEASE
                            REDACTED – FOR PUBLIC RELEASE

       Figure A also shows that telecommunication providers indicated that
they did not install manufacturer updates containing the software required to
effectuate a CALEA-compliant wiretap on 169 switches. Considering the
total switches that had CALEA software solutions installed, providers have
not yet modified or adjusted their networks to activate the software on 151
switches. Meanwhile, of the 3,538 switches that have CALEA solutions both
installed and activated, the survey reported that 1,210 switches are being
administered by carrier personnel that have not been trained to use the
intercept software or otherwise make CALEA functionality available to law
enforcement.

AskCALEA Website and Help Desk

      Considering the results of these surveys, we asked the FBI what it has
done, in addition to the carrier deployment agreements, to help ensure
deployment of CALEA solutions on provider networks. The FBI stated that
since it can only work to enforce CALEA compliance when alerted to
surveillance inadequacies by law enforcement, it has revamped its AskCALEA
website to assist, in a user-friendly way, law enforcement officers and carrier
personnel with surveillance issues. The website’s AskCALEA Help Desk (Help
Desk) maintains a law enforcement-restricted database that details various
wiretap issues and CIU remedies, as shown in Figure B.

    FIGURE B: SCREENSHOT OF ASKCALEA HELP DESK DATABASE

                 Received
    Action                    Platform       Organization       Description
                   Date

      X      X               X           X                  X

      X      X               X           X                  X

      X      X               X           X                  X


      X      X          [SENSITIVE
                           X       XINFORMATION X
                                                REDACTED]


      X      X               X           X                  X


      X      X               X           X                  X


      X      X               X           X                  X

    Source: FBI




                                        18
                            REDACTED – FOR PUBLIC RELEASE
                   REDACTED – FOR PUBLIC RELEASE


      User names and passwords provided by the Help Desk allow law
enforcement personnel to search database fields to find a solution to their
surveillance issue. If the inquiring law enforcement user has a new or
previously undocumented surveillance problem, they can use the database
to submit solution requests to the Help Desk. The CIU told us that it
regularly monitors Help Desk activities and carefully reviews new requests in
developing additional CALEA solutions.

Technology Standards Groups

      The FBI also participates in several domestic and international
technology standard-setting groups to: (1) encourage carriers to meet their
CALEA responsibilities, and (2) promote effective liaison functions with the
telecommunications industry. As a member of these groups, the FBI informs
provider and manufacturer representatives about CALEA assistance
capability requirements and responsibilities, especially concerning emerging
technologies. Table 8 lists the various standard-setting groups with which
the FBI participates.

        TABLE 8: TECHNOLOGY STANDARD-SETTING GROUPS

           United States                           International
  American Association of Paging
                                         International Softswitch Consortium
               Carriers
    Telecommunication Industry
             Association                    European Telecommunications
  Alliance for Telecommunications                Standards Institute
         Industry Solutions
          American Mobile                   Third Generation Partnership
  Telecommunications Association                      Project
Source: FBI

      Participants in these standard-setting groups have a vote in the
decision-making process when developing new technological standards.
Since the FBI has only one vote within each group, FBI officials told us that
manufacturers, engineers, and private industry representatives can easily
overrule their attempts to advocate guidelines that ensure newly established
standards comply with CALEA prior to public release.




                                19
                   REDACTED – FOR PUBLIC RELEASE
                    REDACTED – FOR PUBLIC RELEASE


Developing and Testing CALEA Solutions

       As a result of the FBI’s inability under CALEA to dictate specific
standards in these standard-setting groups, the FBI told us that some new
technologies lack adequate CALEA solutions. As a result, the FBI is
concentrating its efforts on working with and testing VoIP, broadband, and
other packet-mode based communication providers to develop and deploy
CALEA solutions for their unique technologies. To perform CALEA solution
tests more efficiently, the CIU has reorganized its in-house Solutions
Verification Team (Solutions Team). During the reorganization, the
Solutions Team hired additional engineers and acquired new equipment that
automated testing tasks. According to CIU officials, the reorganization, staff
hires, and equipment purchases have allowed the CIU to conduct many more
CALEA solution tests per year.

      Test Subject Selection

       CALEA does not require telecommunication providers, vendors, or
trusted third parties to work with the FBI to ensure their networks and
systems provide compliant surveillance results. Nevertheless, FBI officials
told us that they have reached out to various companies that have indicated
a willingness to cooperate and work with its CIU to perform CALEA solution
testing. To determine which companies are willing to work with them, FBI
officials maintain a list of potentially cooperative test subjects that include
companies that responded to FBI or FCC surveys or contacted the AskCALEA
Help Desk for wiretap assistance. In addition, officials with the Solutions
Team told us they considered other variables, as shown in Table 9, when
deciding whether to approach, schedule, and test the CALEA capabilities of a
certain provider or vendor.




                                 20
                    REDACTED – FOR PUBLIC RELEASE
                    REDACTED – FOR PUBLIC RELEASE


                 TABLE 9: ELEMENTS CONSIDERED FOR
                  SOLUTIONS VERIFICATION TESTING


        1. Test Subject footprint. Regarding providers, the FBI looks
        at whether the provider services a large number of subscribers.
        For manufacturers, the FBI focuses on whether a large number
        of providers use the equipment.


        2. Solution availability. According to the CIU, resources are
        focused on technological standards where it is feasible to use a
        developed CALEA solution or develop a new CALEA solution.


        3. Known vulnerabilities. CIU officials told us that they
        prioritize work with providers or manufacturers to solve CALEA
        compliance issues that: (1) they are aware of from their work
        with the standard-setting groups, and (2) have reportedly
        affected prior or current lawful electronic surveillance.


        4. Test Subject availability. In light of the FCC’s reluctance to
        mandate that carriers report on CALEA compliance activity, the
        FBI has to rely on providers or manufacturers that want or are
        otherwise willing to work with the FBI to develop or implement
        CALEA solutions.

       Source: OIG analysis of Solutions Team documents

       Once the FBI selects a test subject, the Solutions Team begins
developing a test plan. In developing the plan, the Solutions Team reviews
the technology standard against the tested feature specifications while
identifying the particular surveillance need identified by law enforcement.
Once drafted, the Solutions Team sends the test plan to the provider or
manufacturer and once the test plan is agreed upon, the Solutions Team
begins the test.

     Solutions Team Test Results

      From 2005 to 2007, the Solutions Team tested CALEA capabilities at
12 different providers that used emerging technologies. According to test
results, the Solutions Team uncovered deficiencies in various proposed
CALEA solutions. We obtained and analyzed CALEA solution problems
revealed by the Solutions Team tests. Of the 50 deficiencies reviewed, we
found that their impact on law enforcement could be categorized in four

                                 21
                    REDACTED – FOR PUBLIC RELEASE
                    REDACTED – FOR PUBLIC RELEASE


different ways: (1) incomplete surveillance data; (2) inaccurate surveillance
data; (3) unusable surveillance data; and (4) other miscellaneous impacts,
as shown in Table 10.

              TABLE 10: SUMMARY OF SOLUTIONS TEAM
                         TESTING RESULTS

               Type of Issue          Test A   Test B   Test C   Test D
              Incomplete Data             10        5        7        4
              Inaccurate Data              2        2        1        3
               Unusable Data               2        0        1        5
         Other Miscellaneous Issues        3        0        2        3
                             TOTAL        17        7       11       15
       Source: FBI

      Incomplete Surveillance Data. The CALEA solution weaknesses that
had the most detrimental impact to law enforcement were those that caused
incomplete surveillance data. As identified during our analysis, incomplete
surveillance was caused by a variety of different issues with the CALEA
solutions. For example, one test revealed that the implemented CALEA
solution was not intercepting all communications, and therefore surveillance
results did not contain complete information. Another test found that the
solution required that the subject’s modem and computer be active before
the intercept could begin. In such cases, equipment needed to be active on
the subject’s end before the FBI could initiate a court-ordered intercept.

       Inaccurate or Unusable Surveillance Data. The tests also identified
CALEA solutions that could result in inaccurate or unusable information. For
example, in one tested case law enforcement agencies reported receiving
different data on the same target. Another test revealed that a CALEA
solution resulted in hard-to-read surveillance reports.

      At the conclusion of a test, the Solutions Team compiles a list of issues
and sends the list to the company test subject. The company test subject
and the Solutions Team then work to develop solutions to the identified
problems. Once these solutions are developed, the CIU compiles a Quick
Reference Guide describing the issue and its solution. These guides are
posted to the AskCALEA website to assist law enforcement personnel
conducting electronic surveillance in a given telecommunication
environment. During our audit, we found that the FBI has developed several
Quick Reference Guides that are posted to the AskCALEA website.




                                 22
                    REDACTED – FOR PUBLIC RELEASE
                      REDACTED – FOR PUBLIC RELEASE


Conclusion

       Of the nearly $4.6 million spent between January 2006 and December
2007, about $4.5 million was paid to two carriers to deploy CALEA-related
solutions. The FBI also paid $96,878 to a carrier for testing CALEA solutions
on its telecommunication network. We could not assess the reasonableness
or cost effectiveness of these expenditures because the FBI did not base its
costs on independent cost data or competing price estimates.

      Our audit also reviewed how the FBI has continued to work with
telecommunication providers to help ensure that emerging communication
technologies are CALEA compliant. We found that the FBI has revamped its
testing group and enhanced its resources to help measure and facilitate
CALEA compliance. In addition, the FBI has implemented an extensive
testing program to ensure carrier compliance and capability with regard to
emerging technologies.

      At the end of the audit period, only $5,037 remained in the TCCF.
According to a DOJ finance official, the FBI is working with DOJ to transfer
the remaining funds to the DOJ Working Capital Fund and close the TCCF.
Since the OIG is tracking residual TCCF funds by a recommendation made in
a prior OIG report, this report makes no additional recommendations and is
issued closed.38

      We provided a draft of the report to the FBI for comment and review.
Since the report made no recommendations, the FBI did not offer a
response.




     38
          2006 OIG CALEA Implementation Report, 51 and 72.

                                   23
                      REDACTED – FOR PUBLIC RELEASE
                   REDACTED – FOR PUBLIC RELEASE


             STATEMENT ON INTERNAL CONTROLS

      In planning and performing the audit of the Federal Bureau of
Investigation’s (FBI) Implementation of the Communications Assistance for
Law Enforcement Act (CALEA), we considered aspects of the FBI’s internal
controls for determining our auditing procedures. A review of internal
controls within the FBI was not done to provide an assurance on the
propriety or adequacy of FBI internal controls as a whole.

       Due to prior Office of the Inspector General recommendations
regarding CALEA implementation, the FBI has implemented or updated
certain procedures and internal controls. Due to these changes, including
the lack of remaining funds in the Telecommunications Carrier Compliance
Fund, our review did not reveal internal control weaknesses. As a result, the
report makes no recommendation regarding the internal control environment
within the FBI’s CALEA implementation program. Since we are not
expressing an opinion on the FBI’s internal controls as a whole, we include
this statement solely for the FBI to consider in managing its CALEA program.




                                24
                   REDACTED – FOR PUBLIC RELEASE
                   REDACTED – FOR PUBLIC RELEASE


        STATEMENT ON COMPLIANCE WITH LAWS AND
                     REGULATIONS

       We conducted this audit of the Federal Bureau of Investigation’s (FBI)
Implementation of the Communications Assistance for Law Enforcement Act
(CALEA) in accordance with the Government Auditing Standards. Since
compliance with laws and regulations applicable to the FBI’s CALEA program
is the responsibility of FBI managers, we reviewed management processes
and records to obtain a reasonable assurance concerning the FBI’s
compliance with relevant portions of CALEA (47 U.S.C. § 1001 et. seq.), that
in our judgment, would have a material effect on FBI operations if not
complied with. Our audit identified no areas where the FBI did not comply
with CALEA (47 U.S.C. § 1001 et. seq.).




                                25
                   REDACTED – FOR PUBLIC RELEASE
                   REDACTED – FOR PUBLIC RELEASE


                                                                APPENDIX I

           OBJECTIVES, SCOPE, AND METHODOLOGY

Objectives

        The objectives of the audit were to determine the type of equipment,
facilities, and services brought into compliance with CALEA and whether
payments during the most recent 2-year review period for CALEA-required
modifications were reasonable and cost effective. In light of the TCCF
rescissions that occurred in 2007, our audit also reviewed how the FBI has
continued to work with telecommunication providers to help ensure that
emerging communication technologies are CALEA compliant.

Scope and Methodology

      We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient and appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a
reasonable basis for our conclusions based on our audit objectives.

        This audit covered FBI CALEA-related compliance actions and TCCF
payments from January 1, 2006 through December 31, 2007. We conducted
fieldwork and interviewed officials at FBI Headquarters and at other FBI
facilities described in the report, and selected telecommunication providers.
In certain cases, we relied on computer-generated data that documented
TCCF expenditure history and FBI negotiations with telecommunication
carriers. To assess the reasonableness and cost effectiveness of payments
made from the TCCF, we required actual cost data or competing price
estimates, which the FBI did not provide. As a result, we did not offer an
opinion on the reasonableness or cost effectiveness of these costs.

      We reviewed CALEA annual reports, records, program plans,
assessments, and associated files maintained by the FBI to obtain an overall
understanding of the FBI’s CALEA implementation initiative. We also
reviewed supporting documentation related to all contracts, obligations, and
payments for CALEA implementation activities, including documentation
pertaining to carrier payment negotiations, since the last report. Since our
prior audit recommended that funds remaining in the TCCF be put to a
better use, we also obtained and analyzed documents pertaining to the TCCF
rescissions that occurred in 2007.


                                26
                   REDACTED – FOR PUBLIC RELEASE
                       REDACTED – FOR PUBLIC RELEASE


                                                                          APPENDIX II

                        PRIOR OIG AUDIT REPORTS

      The OIG issued five previous audit reports on CALEA implementation
and the TCCF payments under 47 U.S.C. §1001 et. seq. In March 1998, the
OIG reported that the FBI and the telecommunications industry disagreed
over what capabilities had to be provided for a carrier to be CALEA compliant
and eligible for TCCF reimbursement.39 At that time, the carriers had not
modified any equipment pursuant to CALEA, and the FBI had made no
payments to carriers.

      In March 2000, the OIG reported that the FBI began negotiations with
carrier and manufacturer representatives to determine the most appropriate
way to arrange for carriers to meet the capability requirements.40 The FBI
also entered into RTU license agreements with a vendor (Nortel) and certain
carriers to permit carriers who were using specified Nortel equipment, the
use of the CALEA software solutions developed by Nortel. The FBI
negotiated a price of $101.8 million for carrier purchase of these RTU
software licenses, with payments made to Nortel on behalf of all carriers
who used the Nortel equipment specified in the agreement.

      The OIG reported in March 2002 that the FBI had paid or obligated
about $400 million for carrier purchases of RTU software licenses.41 We also
reported that the FBI had not entered into any agreements to reimburse
carriers for activation of the software developed under the RTU agreements.
At that time, the FBI estimated that since each major carrier would require
an additional $100 million in funding, capability solutions could only be
deployed in about 25 percent of the switches prioritized by the FBI.

      In April 2004, the OIG reported that deployment of CALEA technical
solutions remained delayed and the FBI did not collect and maintain data on
carrier equipment that was CALEA-compliant.42 Instead, the FBI estimated
that carriers had activated CALEA solution software on approximately
       39
        Department of Justice Office of the Inspector General, Implementation of the
Communications Assistance For Law Enforcement Act, Audit Report 98-13 (March 1998).
       40
        Department of Justice Office of the Inspector General, Implementation of the
Communications Assistance For Law Enforcement Act, Audit Report 00-10 (March 2000).
       41
          Department of Justice Office of the Inspector General, Implementation of the
Communications Assistance For Law Enforcement Act by the Federal Bureau of
Investigation, Audit Report 02-14 (March 2002).
       42
            2004 OIG CALEA Implementation Report.

                                    27
                       REDACTED – FOR PUBLIC RELEASE
                      REDACTED – FOR PUBLIC RELEASE


50 percent of pre-January 1, 1995 and 90 percent of post-January 1, 1995
wireless equipment, and only 10 to 20 percent of wire line equipment. FBI
personnel advised that some law enforcement agencies could not conduct
proper surveillance on non-CALEA-compliant equipment, but the FBI could
not demonstrate evidence of adverse impacts. The OIG concluded it was
critical for the FBI to collect data on carrier compliance and the impact to law
enforcement of non-compliance to determine the extent to which electronic
surveillance is compromised.

      Except for a one-time payment of $2.2 million, the 2004 report found
that the FBI had not made any payments from TCCF funds for carriers to
activate of CALEA-compliant software.43 Furthermore, cost estimates from
the FBI suggested that the current funding level of $500 million for CALEA
was insufficient to activate necessary switches. In December 2003, the FBI
estimated that about $204 million in additional funds might be required;
however, because cost estimates for CALEA implementation varied widely,
and technological change continued to occur at a rapid pace, the OIG
questioned the accuracy of the FBI’s estimates or whether CALEA’s
implementation cost could be determined with any amount of specificity.

       Our most recent report, issued in March 2006, documented that the
$450 million the FBI expended on RTU software licenses did not guarantee
that CALEA compliant software would be operable or cover carriers’
activation costs.44 At the time of publication, the FBI was negotiating
reimbursement agreements with 4 wire line carriers regarding deploying
CALEA solutions on pre-1995 equipment. The 2006 report also found that
CALEA has provided law enforcement agencies with beneficial electronic
surveillance features, but these benefits generally have not been realized on
wire line systems. However, the report revealed that the effects of delayed
implementation on wire lines were mitigated by the limited number of
wiretaps performed on wire lines (only 12 percent of the total as of 2005).
Moreover, the report found that the growing popularity of Internet telephony
and emerging technologies have undercut the usefulness of wiretaps
conducted on traditional communication networks.




      43
          The FBI entered into a $6.2 million agreement with Qwest to ensure that its
network in Salt Lake City was CALEA-compliant for the 2002 Winter Olympics. Of this
amount, $4 million was derived from FBI Counterterrorism funds and $2.2 million came
from CALEA funding.
      44
           2006 OIG CALEA Implementation Report.

                                   28
                      REDACTED – FOR PUBLIC RELEASE
                REDACTED – FOR PUBLIC RELEASE


                                                        APPENDIX III

                          ACRONYMS

Acronym                              Description

      BellSouth BellSouth Corporation
         CALEA  Communications Assistance for Law Enforcement Act
             CIUCALEA Implementation Unit
         CRWG   Carrier Relations Working Group
            DOJ Department of Justice
           ECPA Electronic Communications Privacy Act
          ESWG  Electronic Surveillance Working Group
             FBIFederal Bureau of Investigation
            FCC Federal Communications Commission
           FISA Foreign Intelligence Surveillance Act
      Form 445  FCC Request for carrier status on CALEA compliance
     Help Desk  AskCALEA Help Desk
 Manufacturers  Equipment Manufacturers
          NortelNortel Networks Corporation
          OSCU  Offsite Contract Unit
            OIG Office of the Inspector General
         Qwest  Qwest Communications International, Inc.
          RBOC  Regional Bell Operating Carriers
            RTU Right-To-Use
Solutions Team  Solutions Verification Team
        Title III
                Title III of the Omnibus Crime Control and Safe Streets
                Act of 1968
          TCCF Telecommunications Carrier Compliance Fund
        Verizon Verizon Communications, Inc.
          VoIP Voice over Internet Protocol




                             29
                REDACTED – FOR PUBLIC RELEASE
